No. 19-1269
IN THE

Supreme Court of the United
States
___________

TCL COMMUNICATION TECHNOLOGY
HOLDINGS LIMITED; TCT MOBILE LIMITED;
TCT MOBILE (US) INC.,
v.

Petitioners,

ERICSSON, INC.; TELEFONAKTIEBOLAGET LM
ERICSSON,
___________

Respondents.

On Petition for Writ of Certiorari to the United
States Court of Appeals for the Federal Circuit
___________

BRIEF OF ACT | THE APP ASSOCIATION AS
AMICUS CURIAE IN SUPPORT OF
PETITIONERS
___________

BRIAN E. SCARPELLI
ACT | THE APP ASSOCIATION
1401 K Street NW, Suite 501
Washington, DC 20005
(202) 420-7487
bscarpelli@actonline.org

June 2, 2020

Counsel for Amicus Curiae

LEGAL PRINTERS

LLC

! Washington, DC ! 202-747-2400 ! legalprinters.com

i
TABLE OF CONTENTS
Contents

Page

TABLE OF AUTHORITIES .................................. vi
INTEREST OF THE AMICUS CURIAE ................1
SUMMARY OF THE ARGUMENT ........................2
ARGUMENT ..............................................................7
I. ........ AMERICAN SMALL BUSINESSES RELY
ON A FAIR AND PREDICTABLE
PATENT SYSTEM TO GROW AND
CREATE AMERICAN JOBS ........................7
II. ...... THE IMPACT OF STANDARDS AND
STANDARD-ESSENTIAL PATENTS ON
IoT, AND AMERCAN GROWTH AND JOB
CREATION ...................................................11
III. .... WELL-ESTABLISHED NORMS OF
FRAND COMMITMENTS AND FRAND
LICENSING ARE FOUNDATIONS OF
STANDARDS-BASED INNOVATION,
SUPPORTED BY JUDGES’ DECISIONS
ON EQUITABLE QUESTIONS..................15
A. ....... FRAND valuation principles must
correspond to the value of the patented
technology ............................................15
B. ....... Patent Hold-up’s Effect on Pricing and
Valuation..............................................19
C. ....... Royalty Stacking’s Effect on Pricing and
Valuation..............................................20

ii
D. ....... Judicial Decisions are Appropriate to
Support Well-Established Norms of
FRAND Commitments and FRAND
Licensing, which are Foundations of
Standards-Based Innovation...............22
IV. ..... THIS COURT MUST ADDRESS THE
FEDERAL CIRCUIT’S IMPROPER
DECISION TO SHIFT DECISIONS ON
EQUITABLE ISSUES TO JURIES ...........23
A. ....... The Federal Circuit’s Decision Failed to
Recognize that the Royalties per an
Injunction after a FRAND Commitment
has been Broken by the SEP Holder are
not Patent Infringement Damages .....23
B. ....... The Seventh Amendment does not
Provide a Right to a Jury Trial for
Specific Performance Issues ................25
C. ....... This Court’s Action is Needed to
Restore the Proper Division of
Responsibilities between Judge and
Jury, which Supports Well-Established
Norms of FRAND Commitments and
FRAND Licensing ................................26
CONCLUSION ........................................................28

iii
TABLE OF AUTHORITIES
Cases
Apple Corp. v. Motorola Inc., Case No. 12-1548 (Fed.
Cir. April 25, 2014) ............................................... 25
Apple Corp. v. Motorola Mobility, Inc., 2012 WL
5416941 (W.D. Wis. Oct. 29, 2012). ................. 22, 26
Atlas Roofing Co. v. Occupational Safety & Health
Review Commission, 430 U.S. 442 (1977)............ 25
Bowen v. Massachusetts, 487 U.S. 879 (1988) .......... 25
Ericsson, Inc. v. D-Link Sys., Inc., 773 F.3d 1201
(Fed. Cir. 2014). .............................................. 17, 19, 24
In re Innovatio IP Ventures, LLC Patent Litigation,
2013 WL 5593609 (N.D. Ill. Oct. 3, 2013) ..... 22, 26
Markman v. Westview Instruments Corp., 517 U.S.
370 (1996) ............................................................. 26
Microsoft Corp. v. Motorola, Inc., 2013 WL 2111217
(W.D. Wash. Apr. 25, 2013) ......................... 19, 22, 26
Microsoft Corp. v. Motorola, Inc., 696 F.3d 872 (9th
Cir. 2012) ............................................................... 16, 25
Microsoft Corp. v. Motorola, Inc., 795 F.3d 1024 (9th
Cir. 2015) ............................................................... 12, 13
Realtek Semiconductor Corp. v. LSI Corp., 2013 WL
2181717 (N.D. Cal. May 20, 2013) ....................... 25
Teva Pharms. USA v. Sandoz, Inc., 574 U.S. 318
(2015) .................................................................... 26
u-Blox AG v. InterDigital, Inc., 2019 WL 555029
(S.D. Cal. Feb. 12, 2019) ..................................... 22, 26

iv
Other Authorities
App Annie, State of the App Economy 2020 (Jan.
2020), https://www.appannie.com/en/go/state-ofmobile-2019/ ............................................................ 9
Brad Biddle et al., How Many Standards in a
Laptop? (And Other Empirical Questions) (2010),
https://papers.ssrn.com/sol3/papers.cfm?abstract_i
d=1619440. ............................................................ 24
Cyber Creative Institute Co., Evaluation of LTE
essential patents declared to ETSI (June 2013),
available at:
http://www.cybersoken.com/file/lte03EN.pdf. ..... 15
ETSI, ETSI Guidelines for Antitrust Compliance, §§
A-B, available at
http:/ot/www.etsi.org/images/files/IPR/etsi%20g
uidelines%20for%20antitrust%20compliance.pd 12
ETSI, Guidelines for Antitrust Compliance, § B ..... 12
ETSI, Intellectual Property Rights Policy, ¶ 3.1 ..... 12
How Many Standards in a Laptop? (And Other
Empirical Questions) (2010),
https://papers.ssrn.com/sol3/papers.cfm?abstract_i
d=1619440. ............................................................ 24
Innovation in Small Businesses Drivers of Change
and Value Use, Small Business Administration,
available at
https://www.sba.gov/sites/default/files/rs342tot_0.p
df.............................................................................. 9
IPlytics, Who is leading the 5G patent race?
(November 2019)................................................... 15

v
John Jurata, Jr. & David B. Smith, Turning the
Page: The Next Chapter of Disputes Involving
Standard-Essential Patents, CPI Antitrust
Chronicle, 15 Oct. 2013. ....................................... 17
Mark A. Lemley & Carl Shapiro, A Simple Approach
to Setting Reasonable Royalties for StandardEssential Patents, 28 Berkeley Tech. L.J. 1135
(2013) .................................................................... 24
Mark A. Lemley & Carl Shapiro, Patent Hold-up and
Royalty Stacking, 85 TEX. L. REV. 1991 (2007). 15
Mark A. Lemley & Timothy Simcoe, How Essential
Are Standard-Essential Patents?, 104 Cornell L.
Rev. (2019). ........................................................... 17
Morgan Reed, Comments of ACT | The App
Association to the National Telecommunications
and Information Administration regarding the
Benefits, Challenges and Potential Roles for the
Government in Fostering the Advancement of the
Internet of Things (June 2, 2016),
http://actonline.org/wp-content/uploads/NTIAComments-on-IoT-Regulations.pdf ........................ 9
Online Platforms and Market Power, Part 2:
Innovation and Entrepreneurship: Hearing Before
the H. Subcomm. on Antritrust, Commercial, and
Administrative Law, 116th Cong. 2 (2019)
(statement of Morgan Reed, President, ACT | The
App Association) available at
https://actonline.org/wp-content/uploads/OnlinePlatforms-and-Market-Power-Part-2-Innovationand-Entrepreneurship-1.pdf .................................. 7
RPX Corp., Standard Essential Patents: How Do
They Fare? available at

vi
https://www.rpxcorp.com/wpcontent/uploads/sites/
2/2015/03/Standard-Essential-Patents-How-DoThey-Fare.pdf ....................................................... 16
Timothy J. Muris, Bipartisan Patent Reform and
Competition Policy, AEI Working Paper at 1 (May
2017) ...................................................................... 16
“What is the IoT? Everything you need to know
about the Internet of Things right now,” ZDNet,
February 3, 2020, available at
https://www.zdnet.com/article/what-is-theinternet-of-things-everything-you-need-to-knowabout-the-iot-right-now/. ........................................ 8

1
INTEREST OF THE AMICUS CURIAE 1
ACT | The App Association (App Association) is an
international not-for-profit grassroots advocacy and
education organization representing more than 5,000
small business software application developers and
technology firms that create the software applications
used on mobile devices and in enterprise systems
around the globe. Today, the ecosystem the App
Association represents is valued at approximately
$1.7 trillion and is responsible for 5.9 million
American jobs. Our members lead in developing
innovative applications and products across consumer
and enterprise use cases, often using standardized
technologies, driving the adoption of the internet of
things.
The App Association has a keen interest in the proper
functioning of the U.S. patent system. Our members
include companies that own patents as well as those
that license patents, all of which are directly impacted
by the courts’ approaches to patent rights and
litigation. Predictability and fairness in the patent
system, particularly with respect to standard
Pursuant to Supreme Court Rule 37.2(a), all parties either
provided blanket consent for amicus filings or received
appropriate notice of and consented to the filing of this brief.
Pursuant to Rule 37.6, amicus affirms that no counsel for a party
authored this brief in whole or in part and that no person other
than amicus and its counsel made a monetary contribution to its
preparation or submission. No person or entity, other than
amicus, its members, or its counsel, made a monetary
contribution to the preparation or submission of this brief.

1

2
essential patents (SEPs), is a primary concern for the
App Association’s thousands of member companies
that innovate across consumer and enterprise
verticals.
SUMMARY OF THE ARGUMENT
The small business software and hardware
technology industry the App Association represents is
a driving force behind the growth in the IoT
revolution. Underlying the growth and ingenuity of
this sector are intellectual property rights, including
patents, and the need for a coherent and wellreasoned framework for patent infringement
disputes.
App Association members build, rely on, utilize, and
innovate from standardized technologies, including
technologies for wireless communication. The
convergence of computing and communication
technologies, driven by the app economy, will
continue as a diverse array of industries come
together to build the IoT through open standards.
Reasonable licensing for SEPs is a “must have” for
many small companies, such as our members (and
their customers and suppliers), that want to have a
legitimate chance to compete in IoT’s tech-driven
areas. App Association members use technical
standards, and specifically the interoperability they
provide, to support a wide variety of innovation and—
absent abuses—to create and promote competition.
To address the unique issues associated with SEPs,
many standard-setting organizations (SSOs) have

3
adopted patent policies that require members to, in
return for acceptance into a standard voluntarily
license the patents necessary for the implementation
of the standard on terms that are fair, reasonable, and
non-discriminatory
(“FRAND”).
The
FRAND
promise—when kept—serves to minimize the
opportunities
for
abuse
associated
with
standardization by providing that patent licenses will
remain available to all market participants on terms
that are reasonable and that promote a “level playing
field” for competition. While no company has an
obligation to commit its patents to a standard, where
a company chooses to do so the FRAND promise acts
as a crucial constraint on the abuse of market power
associated with SEPs. The public interest function of
FRAND breaks down where a company violates its
obligation to license on FRAND terms. The harmful
effects of such abuses, such as patent hold-up
(demanding licensing fees that wildly exceed what
parties would reasonably accept apart from the need
to avoid losing their sunk investments), have serious
implications for developing industries such as the
numerous nascent IoT verticals that our members are
driving forward.
Due to the proliferation of patents in contemporary
technology, and the degree to which networking and
telecommunications products depend on standards,
SEP holders (even those whose SEPs are of
insubstantial or even trivial technical value) can hold
up entire industries and markets by refusing to
license their SEPs or by licensing their SEPs on
unfair or discriminatory terms. It is therefore crucial
that FRAND compensation in SEP licenses should be

4
based on the value of the patented invention as
determined by its technical merits and scope. Despite
their FRAND commitment, some SEP licensors
systematically demand licensing fees that wildly
exceed what parties would reasonably accept apart
from the need to avoid losing their sunk investments,
i.e., engaging in patent hold-up. By contrast, licensors
that value their SEPs based on technical merits and
scope, not on downstream values or uses, reduce the
risk of hold-up.
Royalty stacking–the result of the cumulative
licensing demands of patent licensors on a licensee
combining to make it unreasonable and economically
unviable for the licensee to accept the terms of any
individual offer to license–threatens countless IoT use
cases that build on standardized technologies. SEP
royalty stacking effectively consumes a commercial
product
developer’s
profit
margins,
which
significantly diminishes incentives to engage in R&D,
taxing innovation and prevents technological
advancement. The impact of royalty stacking can and
should be significantly reduced through FRAND SEP
pricing approaches appropriately established in the
courts through judicial decisions.
The complexities and balancing of interests required
to address them in SEP cases illustrate the benefit of
the well-established approach in Federal courts that
has judges, rather than juries, interpret the meaning
of FRAND terms. Further, such an approach is wellestablished precedent across numerous Federal
circuits. The court system’s established division of
responsibilities between judge and jury have properly

5
supported the well-established norms of FRAND
commitments and FRAND licensing, which are
foundations of standards-based innovation. The
Federal Circuit’s decision departs from precedent and
threatens to reduce transparency in court
determinations of FRAND licensing amounts,
inserting uncertainty into the balance in private
negotiations
that
rely
on
such
FRAND
determinations, ultimately jeopardizing the stability
of the open standards system.
The App Association agrees with Petitioner that the
Federal
Circuit
misconstrues
the
FRAND
commitment and is confusing contract and equitable
estoppel remedies with that of regular patent damage
cases. The FRAND commitment is a contract,
whether express or implied, that a SEP holder
voluntarily makes not to bring infringement suits
against any party who agrees to pay FRAND terms in
order to access the standard to which the patent(s)
is/are essential. As a result (and taking into account
the unique competition issues associated with SEPs
and FRAND commitments), patent suits are starkly
different from FRAND-based suits, and far from
equivalent, as the Federal Circuit has nonetheless
held.
Building on its conflation, the Federal Circuit has
incorrectly determined that a jury should be required
in all FRAND cases because of the Seventh
Amendment. Yet the nature of the FRAND
commitment makes such a dispute between the
parties one of specific performance, which this Court
has recognized is equitable. We agree with and

6
endorse the Petitioner’s rationale establishing that
TCL’s release payment constitutes intertwined
monetary relief that is part of the consideration TCL
owes Ericsson in exchange for specific performance of
Ericsson’s FRAND obligations. Further, the Federal
Circuit’s decision departs from settled precedent
across a number of Federal circuits that do not assign
FRAND term determination to juries.
Unless corrected by this court, the Federal Circuit’s
decision will unduly alter the balance the FRAND
construct provides, binding courts across the country
to its erroneous approach. It would undermine
confidence in the standards process itself, and in
courts’ approach to FRAND disputes described above,
particularly by drastically decreasing transparency.
Such impacts would damage the small businesses the
App Association represents significantly, including in
private patent license negotiations that occur
frequently through reducing transparency into courts’
approaches to valuation and damages that are often
relied upon. The Federal Circuit’s divergent approach
will also embolden suits to engage in abuse of the
patent system and spur a race to the courtroom.
The case at hand represents a significant and
damaging departure by the Federal Circuit. Without
this Court’s intervention, App Association members
that rely on open standardized technologies to
innovate and compete face an uncertain and turbid
environment. The App Association believes that the
Federal Circuit’s approach at issue stands to upend
heavily relied upon constructs in contradiction to the
law, requiring correction.

7
We urge this Court to grant the Petitioner’s request
for a writ of certiorari.
ARGUMENT
I.

AMERICAN SMALL BUSINESSES RELY
ON A FAIR AND PREDICTABLE
PATENT SYSTEM TO GROW AND
CREATE AMERICAN JOBS

The App Association represents more than 5,000
small business software application development
companies and technology firms located across the
mobile economy. Our members develop innovative
applications and products to meet the demands for
rapid adoption of mobile technology, improve
workplace
productivity,
accelerate
academic
achievement, monitor health, and support the global
digital economy. App Association members play a
critical role in developing new products across
consumer and enterprise use cases, enabling the rise
of the internet of things (IoT). Today, the App
Association represents an ecosystem valued at
approximately $1.7 trillion that is responsible for 5.9
million American jobs. Online Platforms and Market
Power, Part 2: Innovation and Entrepreneurship:
Hearing Before the H. Subcomm. on Antitrust,
Commercial, and Administrative Law, 116th Cong. 2
(2019) (statement of Morgan Reed, President, ACT |
The
App
Association)
available
at
https://actonline.org/wp-content/uploads/OnlinePlatforms-and-Market-Power-Part-2-Innovationand-Entrepreneurship-1.pdf.

8
IoT is an encompassing concept capturing how
everyday consumer and enterprise products use the
internet to communicate data collected through
sensors and act on that data in a timely and effective
way. IoT is expected to enable improved efficiencies in
processes, products, and services across every sector.
In key segments of the U.S. economy, from agriculture
to retail to healthcare and beyond, the rise of IoT is
demonstrating efficiencies unheard of even a few
years ago. “What is the IoT? Everything you need to
know about the Internet of Things right now,” ZDNet,
February
3,
2020,
available
at
https://www.zdnet.com/article/what-is-the-internetof-things-everything-you-need-to-know-about-the-iotright-now/.
Ultimately, the largest value-add of IoT is in how new
data points become part of what is now commonly
referred to as the “big data” ecosystem (which we
define to mean structured or unstructured data sets
so large or complex that traditional data processing
applications are not sufficient for analysis). As
sensors become smaller, cheaper, and more accurate,
big data analytics enable more efficiencies across
consumer and enterprise use cases. IoT deployment
will be highly use case-dependent. App Association
members, to date, have done well through open
application programming interfaces (APIs) and other
widely-adopted standards (e.g., TCP/IP) to enable
interoperability. For example, in healthcare, a
miniaturized and embedded connected medical device
must be able to automatically communicate bidirectionally in real-time. This capability enables

9
healthcare practitioners to monitor patients'
biometric data and patients to communicate with
caregivers in the event of a medical emergency. Other
uses, such as sensors deployed to alert security of an
unauthorized presence, may only require the ability
to send data to security professionals with minimal
(or even no) capability to receive communications. By
2025, there will be an estimated 25.2 billion connected
devices in a variety of sectors including gaming,
financial, and health across the global digital
ecosystem. App Annie, State of the App Economy 2020
(Jan. 2020), https://www.appannie.com/en/go/stateof-mobile-2019/.
The app economy’s success – and the growth of IoT –
relies on continuous innovation and investment in
connected devices, requiring legal frameworks that
are consistent and strong. Morgan Reed, Comments of
ACT | The App Association to the National
Telecommunications and Information Administration
regarding the Benefits, Challenges and Potential
Roles for the Government in Fostering the
Advancement of the Internet of Things (June 2, 2016),
http://actonline.org/wp-content/uploads/NTIAComments-on-IoT-Regulations.pdf. Patents allow
small business developers to protect their
investments, help attract venture capital, establish
and maintain competitive position in the
marketplace, and level the playing field dealing with
established companies and competitors. Small
businesses produce 16 times more patents per
employee than large patenting firms. “Innovation in
Small Businesses” Drivers of Change and Value Use,
Small Business Administration, available at

10
https://www.sba.gov/sites/default/files/rs342tot_0.pdf.
In the growing IoT space, small businesses need to be
reassured that U.S. patent law is applied in a clear,
reliable, and predictable manner, particularly when
courts are evaluating damages in patent
infringement suits. Any departure in the courts from
established precedent with respect to patent damages
calculations creates uncertainty in the outcome of
court cases, and further upends norms in negotiations
where court methodologies are relied upon, or
influence, negotiations.
The App Association’s members’ ability to take part
in the booming cross-sectoral IoT ecosystem, which
will create millions of additional American jobs in the
process, heavily depends on the ability to rely on and
plan according to legal and business norms and
policymaking that appropriately balances creating a
pro-innovation environment with the public interest.
A core ignitor of growth and ingenuity for small
businesses in emerging IoT sectors is, and must
continue to be a fair, reliable, and predictable
intellectual property rights system, particularly with
respect to patents. According to a recent focus group
survey, over half of our members have dealt with
some type of patent infringement claim. Attempts to
abuse the patent system, however unique they may
be, must be adjudicated and addressed by the courts
to ensure that the patent system can still be relied
upon.

11
II.

THE IMPACT OF STANDARDS AND
STANDARD-ESSENTIAL PATENTS ON
IoT, AND AMERCAN GROWTH AND JOB
CREATION

App Association members build, rely on, utilize, and
innovate from standardized technologies, including
technologies for wireless communication. The
convergence of computing and communication
technologies, driven by the app economy, will
continue as a diverse array of industries come
together to build the IoT. As discussed above, IoT is
an encompassing technological approach where
everyday products use the internet to collect, utilize,
and communicate data that was captured through
standardized
sensors.
IoT’s
seamless
interconnectivity will utilize known and yet-to-bedeveloped industry standards, such as 5G, Wi-Fi,
LTE, Bluetooth, and countless others. As such,
reasonable licensing for SEPs is a “must have” for
many small companies, such as our members (and
their customers and suppliers), that want to have a
legitimate chance to compete in IoT’s tech-driven
areas.
App Association members use technical standards,
and specifically the interoperability they provide, to
support a wide variety of innovation and—absent
abuses—to create and promote competition.
Standardization is particularly critical in today’s
highly digitized markets. Developed industries, such
as medical, automotive, health, manufacturing, and
finance, are each evolving to implement wireless
technologies as IoT takes shape. Simultaneously,

12
new, highly connected industries and markets
implementing wireless standards are just now being
created. In each of these markets, “downstream”
innovative technologies utilize these “upstream”
standardized communication technologies to develop
a panoply of unique and diverse products, many of
which are developed by App Association members.
The benefits of these standards only accrue when
technical standards setting processes are operating as
intended. When the system is gamed and abused,
standardization
processes
carry
significant
competitive risks. Microsoft Corp. v. Motorola, Inc.,
795 F.3d 1024, 1030-31 (9th Cir. 2015)
(standardization “creates an opportunity for
companies to engage in anti-competitive behavior”).
To address the unique issues associated with SEPs,
many standard-setting organizations (SSOs) have
adopted patent policies that require members to, in
return for acceptance into a standard voluntarily
license the patents necessary for the implementation
of the standard on terms that are fair, reasonable, and
non-discriminatory
(“FRAND”).
The
FRAND
promise—when kept—serves to minimize the
opportunities
for
abuse
associated
with
standardization by providing that patent licenses will
remain available to all market participants on terms
that are reasonable and that promote a “level playing
field” for competition. ETSI, Intellectual Property
Rights Policy, ¶ 3.1¶
[T]he ETSI IPR POLICY seeks to reduce
the risk to ETSI, MEMBERS, and others
applying ETSI STANDARDS . . . that

13
investment in the preparation, adoption
and application of STANDARDS could be
wasted as a result of an ESSENTIAL
IPR for a STANDARD . . . being
unavailable. In achieving this objective,
the ETSI IPR POLICY seeks a balance
between the needs of standardization for
public
use
in
the
field
of
telecommunications and the rights of the
owners of IPRs.
ETSI, Guidelines for Antitrust Compliance, § B
(noting that the competition interests addressed by
the ETSI Policies are “aimed at allowing firms to
compete on a level playing field.”).
In other words, while no company has an obligation
to commit its patents to a standard, where a company
chooses to do so the FRAND promise acts as a crucial
constraint on the abuse of market power associated
with SEPs. As the Ninth Circuit has explained, the
voluntary FRAND commitment “must be construed in
the public interest because it is crafted for the public
interest,” as it is designed to protect against the
abuses and consumer harm that standardization can
otherwise enable. Microsoft v. Motorola, 795 F. 3d
1024, 1052 (9th Cir. 2015). The public interest
function of FRAND breaks down where a company
violates its obligation to license on FRAND terms. The
harmful effects of such abuses, such as patent holdup (demanding licensing fees that wildly exceed what
parties would reasonably accept apart from the need
to avoid losing their sunk investments), have serious
implications for developing industries such as the

14
numerous nascent IoT verticals that our members are
driving forward.
Although some large corporations may be able to
absorb the cost of FRAND abuses or to seek redress
through litigation to prevent them, small business
innovators that need reasonable access to SEPs in
order to protect and defend their interests easily may
find themselves financially barred from similar
protections. As a result, small business innovators
faced with FRAND abuse may be forced to abandon
their business plans involving standards altogether;
accept excessive royalty demands made by the SEP
holders, and thus transfer the value of their own
innovations to entrenched, upstream SEP holders; or
change their product’s design to avoid the standard
(an impossible task for markets requiring
interoperability). None of these outcomes are in the
public interest or congressional intent.
The net effect of SEP unchecked abuses would be the
exclusion of the tens of thousands of American small
businesses, not only from established markets, but
also within the emerging vertical markets for IoT
technologies. Therefore, as abusive behavior with
respect to SEPs is alleged, the App Association urges
the court to consider the serious implications of this
case for the future of industry, including small
businesses innovating in IoT.

15
III.

WELL-ESTABLISHED NORMS OF
FRAND COMMITMENTS AND FRAND
LICENSING ARE FOUNDATIONS OF
STANDARDS-BASED INNOVATION,
SUPPORTED BY JUDGES’ DECISIONS
ON EQUITABLE QUESTIONS
A. FRAND valuation principles must
correspond to the value of the patented
technology

Standards typically incorporate numerous SEPs,
sometimes thousands or even tens of thousands per
standard. Complex technology products often
incorporate hundreds of standards. See Mark A.
Lemley & Carl Shapiro, Patent Holdup and Royalty
Stacking, 85 TEX. L. REV. 1991, 1992 (2007). For
example, an independent study found that 49
different patent holders declared 5,919 patent
families essential to the LTE standard. See Cyber
Creative Institute Co., Evaluation of LTE essential
patents declared to ETSI (June 2013), available at:
http://www.cybersoken.com/file/lte03EN.pdf. 87,752
patent declarations, represented through 22,604
patent families, have already been identified in next
generation (5G) standards. See IPlytics, Who is
leading the 5G patent race? (November 2019),
available
at:
https://www.iplytics.com/wpcontent/uploads/2019/01/Who-Leads-the-5G-PatentRace_2019.pdf.
However, with the large number of patents that read
on a single product, not all of these patents (including

16
SEPs) represent breakthrough technologies. See
Timothy J. Muris, Bipartisan Patent Reform and
Competition Policy, AEI Working Paper at 1 (May
2017) (noting that “many” of the 250,000 patents used
in a smartphone are “of questionable quality that
users of the standards cannot avoid.”). As former FTC
Chairman Tim Muris has observed, “[t]he economy is
awash in low-quality patents, particularly in the
crucial high-technology world of Silicon Valley.” Id. at
1. The abundance of low-quality patents is no less of
an issue for SEPs than it is for non-SEPs. Further,
the technical value contributed by many of the
patents used in a given standard can be insubstantial.
For example, in Microsoft Corp. v. Motorola, Inc., 696
F.3d 872 (9th Cir. 2012) the court determined that the
handful of Wi-Fi patents, for which Motorola had
sought a royalty of 2.25% of the price of game consoles
that incorporated Wi-Fi (among numerous other
technologies and standards), “provid[ed] very little
contribution to core functionality of the 802.11 [Wi-Fi]
Standard.” 2013 U.S. Dist. LEXIS 60233 (W.D. Wash.
25 Apr. 2013), aff’d, 795 F.3d 1024 (9th Cir. 2015).
Moreover, “the majority of the technologies available
to and/or adopted by the 802.11 drafters were in the
public domain and not covered by patents.” Id. at 50.
And in infringement cases where the validity or
infringement of alleged SEPs is necessarily at issue,
SEP holders fare poorly. The great majority of
asserted SEPs adjudicated in infringement cases
have been determined to be invalid or not infringed.
See RPX Corp., Standard Essential Patents: How Do
They
Fare?
available
at
https://www.rpxcorp.com/wpcontent/uploads/sites/2/2

17
015/03/Standard-Essential-Patents-How-Do-TheyFare.pdf; and John Jurata, Jr. & David B. Smith,
Turning the Page: The Next Chapter of Disputes
Involving Standard-Essential Patents, CPI Antitrust
Chronicle, 15 Oct. 2013. Further, very often
supposedly essential patents asserted in court turn
out not to cover the technology in the standard. Mark
A. Lemley & Timothy Simcoe, How Essential Are
Standard-Essential Patents?, 104 Cornell L. Rev. 607
(2019). This is particularly significant because
patentees typically assert their strongest patents
against alleged infringers. Yet even the best patents
that SEP holders assert failed to hold up in litigation.
And SEPs determined to be valid and infringed may
offer only marginal benefits over alternative
technologies that were available at the time of
standardization. But once the invention claimed in
even a weak patent is included in a standard, any
party that utilizes the standard can be required to
take a license to the patent. The Court of Appeals for
the Federal Circuit described this phenomenon as
follows:
When a technology is incorporated into a
standard, it is typically chosen from
among
different
options.
Once
incorporated and widely adopted, that
technology is not always used because it
is the best or the only option; it is used
because its use is necessary to comply
with the standard. In other words,
widespread adoption of standard
essential technology is not entirely

18
indicative of the added usefulness of an
innovation over the prior art.
Ericsson, Inc. v. D-Link Systems, Inc., 773 F.3d 1201,
1233 (Fed. Cir. 2014) (emphasis added).
Yet, due to the proliferation of patents in
contemporary technology, and the degree to which
networking and telecommunications products depend
on standards, SEP holders (even those whose SEPs
are of insubstantial or even trivial technical value)
can hold up entire industries and markets by refusing
to license their SEPs or by licensing their SEPs on
unfair or discriminatory terms. Rather than seeking
royalties based on the fair contribution of the
patented technology to the standard, a SEP holder
can leverage its patent rights to demand
compensation far beyond the SEP’s technical value.
The App Association supports that holders of patents
that are essential to a standard should be reasonably
compensated for the use of those SEPs. Indeed, such
compensation is at the center of the FRAND bargain:
in exchange for inclusion of the patented technology
into the standard, the patent holder agrees to license
any implementer on FRAND terms. Potential users of
the standard choose to use a standard because they
are assured they will be able to license the patents
essential to the standard on FRAND terms and
contributors gain access to a broader market of users
willing to license their standard-essential patents
than they would licensing them for use outside the
standard. This FRAND compensation should be based
on the value of the patented invention as determined

19
by its technical merits and scope, as is the case with
every patent, whether or not FRAND-encumbered.
Ericsson, Inc. v. D-Link Sys., Inc., 773 F.3d 1201, 1232
(Fed. Cir. 2014) (“[w]hen dealing with SEPs … the
patentee’s royalty must be premised on the value of
the patented feature, not any value added by the
standard’s adoption of the patented technology.”).
B. Patent Hold-up’s Effect on Pricing and
Valuation
While there is no single FRAND rate (instead,
FRAND is a range), some SEP licensors
systematically demand licensing fees that wildly
exceed what parties would reasonably accept apart
from the need to avoid losing their sunk investments,
i.e., engaging in patent hold-up. Numerous courts
have determined appropriate FRAND rates at a mere
fraction of what the SEP licensor had initially
demanded. For example, in Microsoft v. Motorola,
2013 WL 2111217 (W.D. Wash. Apr. 25, 2013), for
802.11 SEPs Motorola offered Microsoft 2.25% based
on the price of the end product (Xbox 360, approx.
$6.75 based on $300 retail price) where the court
finally decided on FRAND rate for 802.11 SEPs of
$0.03471 cents per unit. Such rulings indicate that
SEPs are frequently overvalued by SEP licensors.
Unreasonably inflated licensing fee demands, despite
the voluntary FRAND commitment, are indicative of
patent hold-up behavior. The licensor can
inappropriately leverage the value of the standard by
virtue of the fact that its patented technology is locked

20
into the standard and shifting to an alternative is not
economically feasible for users of the standard. Holdup enables the licensor to extract more value from the
potential licensee than what the patented technology
is worth. By contrast, licensors that value their SEPs
based on technical merits and scope, not on
downstream values or uses, reduce the risk of holdup.
SEP hold-up and its harmful effects can be avoided
when licensors abide by the FRAND commitment and
seek reasonable royalties calculated based on the
smallest saleable unit (SSU) and the licensor’s pro
rata share of a standard’s declared SEPs. Courts
should – and do – take measures when addressing
SEP disputes to mitigate patent hold-up through
their enforcement of the FRAND commitment,
reinforcing that the FRAND commitment prohibits
deleterious patent hold-up tactics.
C. Royalty Stacking’s Effect on Pricing and
Valuation
Royalty stacking is the result of the cumulative
licensing demands of patent licensors on a licensee.
When these demands are combined, they make it
unreasonable and economically unviable for the
licensee to accept the terms of any individual offer to
license.
With numerous previously unconnected products
across consumer and enterprise use cases becoming
“smart” (e.g., enabled by wireless connectivity that

21
unlocks real time analytics-based decision making),
new IoT use cases are threatened by royalty stacking.
For example, the use of sensors and wireless
connectivity are enabling cities to manage their
garbage collection operations based on new
intelligence signals collected in rubbish bins and
rubbish dumpsters. Across a smart city network,
these signals provide timely knowledge to city
managers, enabling them to deploy valuable
resources much more efficiently. But with the
connectivity unlocking these new efficiencies being
provided by 4G LTE standardized technology, a
standard with more than 5,000 declared SEPs in it,
developers of such smart city solutions face the
daunting possibility of the demands for so many SEP
licenses to “stack” up to exceed the cost of developing
and getting a product to market. SEP royalty stacking
effectively
consumes
a
commercial
product
developer’s profit margins, which significantly
diminishes incentives to engage in R&D. In this way,
royalty stacking taxes innovation and prevents
technological advancement.
The impact of royalty stacking can and should be
significantly reduced through FRAND SEP pricing as
described above. Further, harmful SEP royalty
stacking can be avoided by taking into account an
aggregate SEP royalty rate for the standard as a
whole when assessing whether a royalty rate is
consistent with a FRAND licensing commitment.
Harmful royalty stacking can be avoided through
enforcement of the FRAND commitment by ensuring
that reasonable royalties are calculated based on the

22
SSU and the licensor’s pro rata share of a standard’s
declared SEPs and by ensuring that an aggregate
SEP royalty rate for the standard as a whole is
considered when assessing whether a royalty rate is
consistent with a FRAND licensing commitment.
D. Judicial Decisions are Appropriate to
Support Well-Established Norms of
FRAND Commitments and FRAND
Licensing, which are Foundations of
Standards-Based Innovation
As discussed above, App Association members rely on
technical standards and the interoperability they
provide to support a wide variety of innovation and to
create and promote competition. The complexities and
balancing of interests required to address them
described above illustrate the benefit of the wellestablished approach in Federal courts that has
judges, rather than juries, interpret the meaning of
FRAND terms. Further, such an approach is wellestablished precedent across numerous Federal
circuits. See, e.g., Microsoft Corp. v. Motorola, Inc.,
2013 WL 2111217 (W.D. Wash. Apr. 25, 2013), aff’d,
795 F.3d 1024, 1040 (9th Cir. 2015); In re Innovatio
IP Ventures, LLC Patent Litigation, 2013 WL 5593609
(N.D. Ill. Oct. 3, 2013); u-Blox AG v. InterDigital, Inc.,
2019 WL 555029 (S.D. Cal. Feb. 12, 2019); Apple
Corp. v. Motorola Mobility, Inc., 2012 WL 5416941
(W.D. Wis. Oct. 29, 2012). The court system’s
established division of responsibilities between judge
and jury have properly supported the well-established
norms of FRAND commitments and FRAND

23
licensing, which are foundations of standards-based
innovation.
As discussed below, absent the checks provided by
judges in FRAND interpretations, the court system
will enable SEP holders to demand supra-FRAND
terms, including licensing fees, consistent with data
cited by the Petitioner demonstrating that larger
damage awards are awarded by juries. Further, the
Federal Circuit’s departure from precedent will
degrade transparency in court determination of
FRAND licensing amounts. The Petitioner has
carefully argued, and the App Association fully
supports, that the Federal Circuit’s changes to the
court system will in turn disrupt the balance in
private negotiations that rely on such FRAND
determinations, altering the stability of the open
standards system.
IV.

THIS COURT MUST ADDRESS THE
FEDERAL CIRCUIT’S IMPROPER
DECISION TO SHIFT DECISIONS ON
EQUITABLE ISSUES TO JURIES
A. The Federal Circuit’s Decision Failed to
Recognize that the Royalties per an
Injunction after a FRAND Commitment
has been Broken by the SEP Holder are
not Patent Infringement Damages

The App Association agrees with Petitioner that the
Federal
Circuit
misconstrues
the
FRAND
commitment and is confusing contract and/or

24
equitable estoppel remedies with that of regular
patent damage cases. The FRAND commitment is a
contract, whether express or implied, that a SEP
holder voluntarily makes not to bring infringement
suits against any party who agrees to pay FRAND
terms in order to access the standard to which the
patent(s) is/are essential. As a result (and taking into
account the unique competition issues associated
with SEPs and FRAND commitments), patent suits
are starkly different from FRAND-based suits, and
far from equivalent, as the Federal Circuit has
nonetheless held.
Unlike regular patent suits where a plaintiff
demonstrates infringement on a valid and enforceable
U.S. patent, with remedies offered limited to the
United States, FRAND disputes do not require a
demonstration of infringement or scope. Further,
FRAND disputes may include entire portfolios of
SEPs. See Mark A. Lemley & Carl Shapiro, A Simple
Approach to Setting Reasonable Royalties for
Standard-Essential Patents, 28 Berkeley Tech. L.J.
1135 (2013). Sometimes, the SEP count can be in the
thousands for certain standards. Brad Biddle et al.,
How Many Standards in a Laptop? (And Other
Empirical
Questions)
(2010),
https://papers.ssrn.com/sol3/papers.cfm?abstract_id=
1619440.
Federal courts have long recognized the significant
differences between cases involving FRANDencumbered suits and regular patent suits, with
divergences presenting themselves on fundamental
levels such as with respect to factors in Georgia

25
Pacific. Ericsson v. D-Link, 773 F.3d 1201, 1230-31
(Fed. Cir. 2014). Federal courts regularly note the
difference. Microsoft Corp. v. Motorola, Inc., 696 F.3d
872 (9th Cir. 2012); Apple Corp. v. Motorola Inc., Case
No. 12-1548 (Fed. Cir. April 25, 2014); Realtek
Semiconductor Corp. v. LSI Corp., 2013 WL 2181717
(N.D. Cal. May 20, 2013).
B. The Seventh Amendment does not
Provide a Right to a Jury Trial for
Specific Performance Issues
Building on its conflation, the Federal Circuit aims to
require a jury in all FRAND cases, finding that the
Seventh Amendment should apply to those FRAND
disputes. Because of the nature of the FRAND
commitment, the dispute between the parties at issue
is one of specific performance, which this Court has
recognized is equitable. Atlas Roofing Co. v.
Occupational Safety & Health Review Commission,
430 U.S. 442 (1977). This Court has also held that “a
judicial remedy may require one party to pay money
to another is not a sufficient reason to characterize
the relief as ‘money damages.’” Bowen v.
Massachusetts, 487 U.S. 879, 893 (1988). We agree
with and endorse the Petitioner’s rationale
establishing that TCL’s release payment constitutes
intertwined monetary relief that is part of the
consideration TCL owes Ericsson in exchange for
specific
performance
of
Ericsson’s
FRAND
obligations.

26
Further, the Federal Circuit’s decision departs from
settled precedent across a number of Federal circuits
that do not assign FRAND term determination to
juries. See, e.g., Microsoft Corp. v. Motorola, Inc., 2013
WL 2111217 (W.D. Wash. Apr. 25, 2013), aff’d, 795
F.3d 1024, 1040 (9th Cir. 2015); In re Innovatio IP
Ventures, LLC Patent Litigation, 2013 WL 5593609
(N.D. Ill. Oct. 3, 2013); u-Blox AG v. InterDigital, Inc.,
2019 WL 555029 (S.D. Cal. Feb. 12, 2019); Apple Corp.
v. Motorola Mobility, Inc., 2012 WL 5416941 (W.D.
Wis. Oct. 29, 2012). The Federal Circuit’s opinion now
threatens this relied-upon precedent across all
Circuits.
Further, we call on the Court to recognize that even
typical “classic” patent disputes do not enjoy a Seventh
Amendment right to a jury trial. FRAND cases aside,
this Court has held that even regular patents cases do
not require a jury for all aspects, such as questions of
law regarding scope of patent claims or construction
claims. See Markman v. Westview Instruments Corp.,
517 U.S. 370 (1996); Teva Pharms. USA v. Sandoz,
Inc., 574 U.S. 318 (2015).
C. This Court’s Action is Needed to Restore
the Proper Division of Responsibilities
between Judge and Jury, which
Supports Well-Established Norms of
FRAND Commitments and FRAND
Licensing
Unless corrected by this court, the Federal Circuit’s
decision will unduly alter the balance the FRAND

27
construct provides, binding courts across the country
to its erroneous approach. It would undermine
confidence in the standards process itself, and in
courts’ approach to FRAND disputes described above,
particularly by drastically decreasing transparency.
No group needs certainty on this aspect of patent law
more than small businesses, including those that the
App Association represents. Further, we note that in
private patent license negotiations that occur
frequently, courts’ approaches to valuation and
damages are often relied upon. With continued
uncertainty due to the Federal Circuit’s departure,
small businesses would be forced to deal with a lack
of insight into methodologies that foster inflated SEP
pricing by juries and which contribute royalty
stacking, resulting in the potential of having to accept
unfavorable licensing terms that would not align with
FRAND principles.
Additionally, should the Federal Circuit’s approach
continue without this Court’s review, patent owners
may recognize the financial opportunities that arise
due to a lack of apportioned damages in a patent
infringement case. Such a situation would further
embolden suits by abusive patent holders who seek to
weaponize the threat of unapportioned and inflated
patent judgements as a negotiating tool. The widely
recognized delta between awards determined by
judge and jury would incent SEP holders to race to the
courtroom. Such a negative effect would particularly
impact small businesses like the App Associations’
members due to the inability to compete in the
marketplace as a result of the inflated royalty rates.

28
The case at hand represents a significant and
damaging departure by the Federal Circuit. Without
this Court’s intervention, App Association members
that rely on open standardized technologies to
innovate and compete face an uncertain and turbid
environment. The App Association believes that the
Federal Circuit’s approach at issue stands to upend
heavily relied upon constructs in contradiction to the
law, requiring correction.
CONCLUSION
For the foregoing reasons, this Court should grant the
petition for a writ of certiorari.
Respectfully submitted,
BRIAN E. SCARPELLI*
ACT | THE APP ASSOCIATION
1401 K Street NW, Suite 501
Washington, DC 20005
(202) 420-7487
bscarpelli@actonline.org

